<html>
<title> - MARKUP ON: H. CON. RES. 292 AND H.R. 3707</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
               MARKUP ON: H. CON. RES. 292 AND H.R. 3707

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY MARCH 23, 2000

                               __________

                           Serial No. 106-123

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international_relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
65-672CC                     WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                      Jill Quinn, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

H. Con. Res. 292.................................................     1
H.R. 3707........................................................     6

                                APPENDIX

H. Con. Res. 292.................................................    12
The Honorable Doug Bereuter, Committee on International Relations 
  Markup of H. Con. Res. 292 Statement on the Resolution.........    16
Amendment to H. Con. Res. 292 offered by Mr. Gilman and Mr. 
  Gejdenson......................................................    18
China prints plan to attack Taiwan...............................    19
H.R. 3707........................................................    22
 Amendment to H.R. 3707 offered by Mr. Bereuter..................    26
Statement on H.R. 3707 American Institute in Taiwan Facilities 
  Enhancement Act, the Honorable Doug Bereuter...................    28


               MARKUP ON: H. CON. RES. 292 AND H.R. 3707

                              ----------                              


                        Thursday, March 23, 2000

                  House of Representatives,
              Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2200, Rayburn House Office Building, Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Mr. Gilman.  The Committee will come to order.
    The Committee on International Relations meets in open 
session pursuant to notice to markup two measures. Our two 
measures today are H. Con. Res. 292, congratulating President-
elect Chen Shui-bian and Vice President-elect Annette Lu of 
Taiwan and reaffirming United States policy toward Taiwan and 
the People's Republic of China, and H.R. 3707, to authorize 
funds for the site selection and construction of a facility in 
Taipei, Taiwan suitable for the mission of the American 
Institute in Taiwan.
    We will first proceed with H. Con. Res. 292 relating to the 
recent elections in Taiwan. The Chair lays the resolution 
before the Committee. The clerk will report the title of the 
resolution.
    Ms. Bloomer.  H. Con. Res. 292, a resolution congratulating 
the people of Taiwan for the successful conclusion of 
Presidential elections on March 18, 2000, and reaffirming 
United States policy toward Taiwan and the People's Republic of 
China.
    Mr. Gilman.  This resolution was referred to the 
Subcommittee on Asia and the Pacific and considered yesterday. 
It was reported without amendment, without objection. A 
preamble and operative language of the resolution will be read 
in that order for amendment. The clerk will read.
    Ms. Bloomer.  Whereas, section 2(c) of the Taiwan Relations 
Act states the preservation and enhancement of the human rights 
of all of the people on Taiwan to be an objective of the United 
States.
    Mr. Gilman.  Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point. This measure was introduced by the gentleman from Texas, 
the distinguished Majority Leader, Mr. Armey.
    [The bill appears in the appendix.]
    I now recognize the gentleman from Nebraska, Mr. Bereuter, 
the Chairman of the Subcommittee on Asia and the Pacific to 
introduce it to the Committee.
    Mr. Bereuter.  I thank you, Mr. Chairman.
    I move to strike the last word. This resolution was 
introduced just yesterday by the Majority Leader, Mr. Armey of 
Texas. Following introduction of the resolution, the 
Subcommittee on Asia and the Pacific met, marked-up, and 
reported this resolution by voice vote.
    Both myself and Mr. Lantos, the distinguished Ranking 
Minority Member of the Subcommittee on Asia and the Pacific are 
Co-sponsors of H. Con. Res. 292, as are other Members of the 
Subcommittee, including Mr. Rohrabacher and Dr. Cooksey. 
Indeed, I would like to point out to the Committee colleagues 
that this resolution is a product of input from both the 
Majority and Minority. The resolution congratulates the people 
of Taiwan and Taiwan's leaders for the successful conclusion of 
their Presidential election of March 18th.
    This, of course, is an historic point because it marks a 
free election by the Chinese, succeeding another free election. 
Of course, those are precedents. It is the first such 
transition of a national office from one elected leader to 
another in a very long history of Chinese societies. It 
actually marks a move from leadership from one party to another 
in Taiwan. The people of Taiwan are to be congratulated for 
their continuing efforts in developing and sustaining a free 
democratic society which respects human rights and embraces 
free markets. Contrary to the claims of those trying to defend 
Communism and other authoritarian forms of government, the 
election clearly demonstrates that democracy works, and that 
the Chinese people--those on Taiwan, and those on the 
mainland--yearn for it and could flourish with it.
    Success of democracy in Taiwan is indeed I think a powerful 
model for the mainland. The resolution also acknowledges that a 
stable and peaceful security environment in East Asia is 
essential to the furtherance of democratic developments in 
Taiwan and other countries, and reaffirms U.S. policy toward 
Taiwan as set forth in the Taiwan Relations Act.
    In this regard, the resolution appropriately expresses a 
sense of Congress that the People's Republic of China should 
not make provocative threats against Taiwan and should 
undertake steps that would lead to substantive dialogue--
including the renunciation of the use of force against Taiwan--
and encourage democracy, the rule of law, and the protection of 
human and religious rights for the People's Republic of China.
    I am encouraged that since the election in Taiwan, Beijing 
has curtailed, to a certain degree, its aggressive and 
unhelpful rhetoric, and that the PRC appears again, to a 
certain degree, to be extending the offer for renewed dialogue. 
It is an offer which I hope is offered in good faith. Across 
the strait, President-elect Chen and others in Taipei are also 
calling for renewed dialogue, and are already proposing the 
kind of responsible statesmen-like policies that could expand 
and accelerate this dialogue.
    Mr. Chairman, this is a timely, needed, and straightforward 
resolution. It passed without opposition in the Subcommittee. I 
understand the Chairman and the Ranking Minority Member, Mr. 
Gejdenson, will offer an amendment which corrects a technical 
drafting error and also makes another change in language that 
is more appropriate. By the way, the amendment has the support 
of Mr. Armey. I thank my two colleagues, the leaders of the 
Committee, for offering the amendment. I urge the Committee to 
support the amendment and adopt the resolution.
    Thank you. I yield back.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]
    Mr. Gilman.  Thank you, Mr. Bereuter.
    Mr. Lantos. Mr. Lantos. Thank you very much, Mr. Chairman.
    I am delighted to join my good friend and colleague from 
Nebraska in urging my colleagues to support this resolution. I 
would like to say a few things because the resolution is 
subject to misunderstanding on many scores. Taiwan represents 
one of the great success stories of the post-World War II era.
    Taiwan, which used to be a destitute, primitive, backward 
society has become one of the great economic success stories of 
the last Century. In its last decade, Taiwan has become one of 
the great political success stories by becoming a full-fledged 
democracy. From an American point of view, there is nothing 
that could be more desirable than to see an under-developed 
autocracy become a developed democracy.
    This stands in sharp contrast with the continuing 
authoritarian and dictatorial government which rules in 
Beijing. I think our resolution needs to be viewed as one of 
congratulating the people of Taiwan on having attained both a 
very high degree of economic development, and creating a 
functioning political democracy.
    There is a free press in Taiwan, contrary to mainland 
China. There are political alternatives in Taiwan, contrary to 
mainland China. I think it is high time that some in this 
country recognize that the leadership in Beijing is hanging on, 
as the Soviet leadership did, not too many years ago, to a 
nonfunctioning and fundamentally unacceptable regime, 
unacceptable to its own people, which sooner or later, and I 
hope sooner, will give way to a multi-party functioning 
democracy on the mainland.
    I think it is important to realize, Mr. Chairman, the 
extent to which the leadership on the mainland is out of touch 
with the people. Both within its own country and on Taiwan 
there were threats issued by the government in Beijing 
concerning this election just a few days before that election. 
As some of us predicted, those crude threats became highly 
counter-productive.
    I congratulate the people of Taiwan for having the courage 
to stand up to the threats of the mainland and elect the person 
they chose to elect. The reaction, I think, in our own country 
to these crude threats by the Chinese Communist regime I am 
convinced are similarly negative.
    Beijing, at long last, must understand that its threats do 
not work. That it must recognize the people's desire to 
function in a free and democratic fashion. This means religious 
groups must be allowed their freedom. This means that 
practitioners of Falnm Gong must no longer be persecuted. This 
means that followers of all faiths need to have the freedom to 
practice their religion. It also means that the handful of 
incredibly courageous individuals who expressed views contrary 
to this regime need to be released.
    Our resolution is pro-Chinese people. I personally have the 
highest regard for the Chinese civilization. It is one of the 
great civilizations of this world. It is one of the historic 
tragedies of this period that these great people are ruled by 
an autocratic and dictatorial regime. I strongly urge my 
colleagues to support this resolution which recognizes the 
enormous achievements of the people of Taiwan, and holds out 
the promise for the people of China.
    Mr. Gilman.  Thank you, Mr. Lantos.
    Mr. Gilman.  Mr. Delahunt.
    Mr. Delahunt.  I have no comment.
    Mr. Gilman.  Are there any other Members seeking 
recognition?
    [No response.]
    Mr. Gilman.  If not, I would note that I am pleased to 
bring this measure before the Committee today for 
consideration. I want to thank our Majority Leader, Mr. Armey 
of Texas, for introducing the timely resolution, and express my 
appreciation to the Chairman of our Asia and the Pacific 
Subcommittee, Mr. Bereuter, for expeditiously considering the 
resolution in the Subcommittee.
    I congratulate the people of Taiwan on a very successful 
election and for taking another step in consolidating their 
democratic evolution. They should be very proud of their 
democracy, registering an 80 percent voter turn-out. I wish we 
could have a similar turn-out in our own Nation. On May 20th, 
for the first time in Taiwan's history, the mantle of power is 
going to be passing from one democratically elected president 
to another.
    This peaceful transfer of power will be taking place 
despite the provocative attempts by the government of Beijing 
to intimidate Taiwan's voters and influence the outcome of 
their election. The new government of Chen Shui-bian faces many 
challenges as it ascends to office. I want to commend the 
President-elect for his proposal of embarking on a journey of 
reconciliation with China, and for his offer to meet with 
China's leaders.
    Talks should only go forward in a pace and scope acceptable 
to the parties on both sides of the Strait. I want to encourage 
the PRC to exercise restraint; to avoid fanning the flames of 
nationalism over Taiwan in an effort to divert attention from 
some of their own internal problems in China; to open a 
dialogue with Taipei; and to end its military threats toward 
that island.
    As has been longstanding American policy, it is essential 
that the future of Taiwan be determined in a peaceful and 
mutually agreeable manner to the people on both sides of the 
Strait. Let me close by saying that I hope the world will take 
appropriate notice of what has yet transpired in Taiwan, as 
just another Asian nation has fully embraced democratic 
principles and practices, further proving that democracy is not 
an Eastern or Western value, as some might contend, but a 
universal value and a right of people everywhere.
    We especially hope that the 1.2 billion people of the PRC 
and their unelected government take particular notice of the 
model Taiwan provides for China's future. We call upon the 
Administration to work productively with the new government and 
to treat Mr. Chen as an equal partner in addressing cross-
strait issues.
    Last, I would like to be added to the list of Co-sponsors 
of this important resolution. I look forward to bringing it to 
the Floor for consideration at an early date.
    Is there any other Member seeking recognition?
    Mr. Rohrabacher.  I rise in support of this measure before 
us today. Obviously, it is important for us, as you might say, 
the premiere--outside of the British Parliament--the premiere 
elected body in the world, to acknowledge that we have an 
historic event taking place in Taiwan. China is, of course, a 
country with the longest history of any country of the world.
    The Chinese people are rightfully proud of their own 
heritage. However, it has not been a democratic heritage. 
Today, for the first time in this long history of China, there 
is a government that has been elected and replaced, again, 
through democratic elections. We have a new President-elect, 
again, through democratic elections.
    This is a phenomenal historic moment. I believe what has 
happened on Taiwan could well be a model for all of the 
billions of people in China. Perhaps this is why Beijing is so 
bellicose and so belligerent at this point because they know 
that once they see a group of Chinese people who are able to, 
through the ballot box, help direct their own destiny, and 
control the government policies of their own country, this 
message will seep throughout the rest of the mainland of China.
    I believe the ultimate solution to the friction that now is 
taking place between the United States and China, and China and 
its neighbors, and especially between Beijing and Taipei, the 
ultimate solution is the democratization of the mainland. So, 
this resolution today, taking note of this historic occasion, 
is something that I totally support. Thank you Mr. Gilman.
    The history books, I do not think, are ever going to 
remember our names--we have a spot here in Congress--but 
history will remember this election, because I think it is 
going to lead to big and important things on the mainland of 
China.
    Mr. Gilman.  Thank you, Mr. Rohrabacher.
    Mr. Gejdenson, do you have some remarks?
    Mr. Gejdenson.  No comments, Mr. Chairman.
    Mr. Gilman.  Any other Members seeking recognition?
    [No response.]
    Mr. Gilman.  If not, I have an amendment at the desk. The 
clerk will read the amendment.
    Ms. Bloomer.  Amendment to H. Con. Res. 292 offered by Mr. 
Gilman and Mr. Gejdenson. In the fifth clause of the preamble, 
strike ``head of state'' and insert ``President.''
    [The amendment appears in the appendix.]
    Mr. Gilman.  The amendment will be considered as having 
been read. The main purpose of this amendment is technical. 
First, to expand ``House of Representatives'' to ``Congress'', 
and Senate and House concurrent resolution, and change the term 
``legal'' to ``statutory,'' which is more accurate.
    Second, regarding China's provocative threats toward 
Taiwan, Mr. Gejdenson and I have agreed to change some of the 
wording in the second resolve clause to a broader declarative 
statement stating that China should refrain, in a general 
sense, from making provocative threats against Taiwan, and not 
limit it to those threats contained in the State Council White 
Paper.
    Mr. Gejdenson, do you have any comments on the amendment?
    Mr. Gejdenson.  I think you have done an excellent job 
explaining it, Mr. Chairman
    Mr. Gilman. Is no one else seeking recognition?
    Mr. Bereuter. Mr. Chairman, I previously spoke my support 
for your effort. I appreciate its intent and what it 
accomplishes.
    Mr. Gilman. Thank you, Mr. Bereuter.
    The question is now on the amendment. All in favor, signify 
by----
    Mr. Rohrabacher.  Mr. Chairman?
    Mr. Gilman.  Mr. Rohrabacher.
    Mr. Rohrabacher.  I would like to place in the record an 
article that was taken from a People's Liberation Army weekly 
publication in China that was just put all over China in which 
the Plaintiff's Liberation Army is suggesting that attacks on 
the United States may be necessary to accomplish their goals 
with Taiwan, just so people understand how important the 
measure is that we are talking about today.
    Mr. Gilman.  What is the date of that article?
    Mr. Rohrabacher.  It is a Knight-Ritter article about the 
article in a March 20th weekly Chinese publication from the 
People's Liberation Army.
    Mr. Gilman.  Without objection, the article will be made a 
part of the record.
    [The article referred appears in the appendix.]
    Mr. Gilman.  The question is on the amendment. All in 
favor, signify in the usual manner.
    [Chorus of ayes.]
    Mr. Gilman.  Opposed?
    [No response.]
    Mr. Gilman.  The amendment is carried.
    Any other amendments by any of the Members?
    [No response.]
    Mr. Gilman.  If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter.  Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Mr. Gilman.  The question is on the motion by the gentleman 
from Nebraska. All those in favor of the motion, signify in the 
usual manner, by saying aye.
    [Chorus of ayes.]
    Mr. Gilman.  All those opposed, say no.
    [No response.]
    Mr. Gilman.  The ayes have it. The motion is agreed to. 
Further proceedings on this measure are postponed.
    Mr. Gilman.  We will now consider H.R. 3707, relating to 
the construction of the American Institute on Taiwan. The Chair 
lays the bill before the Committee. The clerk will report the 
title of the bill.
    Ms. Bloomer.  H.R. 3707, a bill to authorize funds for the 
site selection and construction of a facility in Taipei, Taiwan 
suitable for the mission of the American Institute in Taiwan.
    [The bill appears in the appendix.]
    Mr. Gilman.  Without objection, the first reading of the 
bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer.  Be it enacted by the Senate and House of 
Representatives of the United States of America and Congress 
assembled, section 1, short title.
    Mr. Gilman.  Without objection, the bill is considered as 
having been read. It is open for amendment at any point. The 
bill was in front of the Subcommittee on International 
Operations and Human Rights, which is weighing further 
consideration of it.
    I now recognize the gentleman from Nebraska, Mr. Bereuter, 
to introduce the bill.
    Mr. Bereuter.  Mr. Chairman, thank you very much for 
marking up this bill so expeditiously. I would like to express 
my sincere appreciation to the Chairman of the Subcommittee on 
Foreign Operations and Human Rights, the distinguished 
gentleman from New Jersey, Mr. Smith, for his much appreciated 
assistance in moving the bill forward so quickly and for 
suggested minor refinements on pages 3 and 4 of the resolution.
    Mr. Chairman, I believe it is important to note that the 
United States' commitment to the security and well-being of the 
people of Taiwan is enshrined in the Taiwan Relations Act (TRA) 
of 1979, a Congressional initiative which continues to be the 
guide for our unofficial relations. The Taiwan Relations Act 
established the American Institute in Taiwan, Taipei, as a 
nonprofit corporation to implement, on behalf of the United 
States, any and all programs, transactions, and other relations 
with Taiwan. In other words, to function as our unofficial 
embassy in Taiwan. The current AIT facilities, which in some 
cases consist of aging Quonset huts, are grossly inadequate, 
and were not designed for the important functions that AIT 
performs. They were built or occupied as temporary facilities 
almost 50 years ago and are increasingly difficult and 
expensive to maintain.
    From the perspective of security, AIT fails miserably, 
surrounded by taller buildings and lacking adequate setback. 
Major, very cost-ineffective enhancements would be required to 
bring it into compliance for security requirements. In fact, it 
is an impossibility. The site is entirely inappropriate for 
construction of a new facility. Because of our unique 
relationship with Taiwan, characterized by the TRA, the State 
Department is not able, under routine authority, to proceed 
with planning and construction of a new facility for AIT.
    The Congress must specifically appropriate and authorize 
the necessary funds. While AIT has made a good faith effort to 
set aside funds for the construction of a new office building, 
and they have set aside about $25 million, these funds will 
never be sufficient for even a modest but adequate complex that 
is sufficient and secure enough to meet AIT's needs.
    This resolution, which this Member introduced, has 
bipartisan support. Although only recently introduced, the 
resolution is Co-sponsored by the distinguished Ranking Member 
of the Committee, Mr. Gejdenson, as well as other distinguished 
Members of the Committee, including Mr. Lantos, Mr. Smith, and 
Mr. Rohrabacher.
    The bill authorizes $75 million for the planning, the 
acquisition, and the construction of the new AIT facility. 
Members should not be concerned about that figure. It is 
perhaps conservative. I would tell my colleagues that the 
facility for AIT cannot even get in line for future 
construction projects, at this point, without authorization. It 
will have to take its place in line with the other construction 
needs of embassies and consulates around the world if we 
authorize it. It cannot get its place in line until we do.
    Over 20 years after the enactment of the TRA, our 
unofficial relations with the people on Taiwan are stronger, 
more robust, and more important than ever. It is a very 
important visa post; one of the three or four most important in 
the world in terms of number of visas processed. To reflect the 
importance of these relations, as well as for the very 
practical reasons of efficient and secure operations, the 
Congress needs to act to authorize the lengthy effort to 
upgrade our diplomatic facilities on Taiwan.
    Mr. Chairman, I know we are short on time, but I do want to 
make a statement now that is important. Recently, as is 
apparent to all of us, we have been seized with issues 
involving our relationship with Taiwan and China. Today 
relatedly, we marked up in addition to this bill another 
resolution which congratulates the people of Taiwan on the 
success of their historic democratic elections.
    We have also been concerned by the bellicose rhetoric from 
Beijing that once again preceded the Taiwanese Presidential 
elections. The House has also recently passed a properly 
amended version of the Taiwan Security Enhancement Act (TSEA). 
We are preparing for the upcoming debate on granting permanent 
normal trade relations (PNTR) for China, as a part of that 
country's succession to the WTO.
    In view of all of these developments, now is the 
appropriate time to send another message of our unshakable 
long-term commitment to our critically important relations with 
Taiwan. We are there in Taipei for as long as it takes. In the 
judgment of this Member, Congress should and will work with the 
Administration to approve permanent normal trade relations with 
the PRC as a part of our support for its accession to the World 
Trade Organization (WTO), just as we will support the near 
simultaneity of Taiwan's accession to the WTO.
    At the same time, it is very important that we make it 
crystal clear to the PRC and the world that we are calmly but 
resolutely standing at the side of Taiwan providing for the 
sale of necessary defensive weapons to wit: to defend itself 
against all hostile or coercive actions to enforce its 
reunification with PRC through any process that is not a 
peaceful, noncoercive one.
    We are, by our recent actions regarding Taiwan, making our 
continued, positively supported, TRA-driven relationship with 
Taiwan unambiguous. We are proceeding on a two-track Taiwan-PRC 
policy, resolutely, unflinchingly, unabashedly standing by 
Taiwan's side while demonstrating our willingness to engage 
with the PRC in a great variety of ways when it is in our 
national interest and consistent with our regional stabilizing 
role to do so.
    We have benign motives in our great interest in Asia. As a 
super power, we will act like one and defend our national 
interest in the region and support all of our loyal allies.
    Mr. Berman.  Will the gentleman yield?
    Mr. Bereuter.  I would be happy to yield to the gentleman.
    Mr. Berman.  One way to further clarify that two-track 
policy that you articulated is that, in the event that we 
accord permanent normal trade relations status to the PRC, we 
make it quite clear in the decision that automatically, not by 
virtue of action of the Chief Executive or subsequent action by 
the Congress, but automatically, such status is revoked totally 
if China invades, attacks, blockades Taiwan. They lose access 
to all of the U.S. market.
    Mr. Bereuter.  I thank the gentleman for his comments. I 
would just tell him that Congresswoman Dunn and I offered a 
resolution about 10 days ago that you may want to consider as a 
Co-sponsor which would provide the sense to Congress that 
Taiwan's accession to the WTO ought to be simultaneous or 
immediately thereafter.
    Now, if the gentleman might want to consider an amendment 
further to be more specifically on this track he could 
certainly consider it. I would urge him to look at that 
resolution.
    Mr. Berman.  Just further, I would look at that resolution 
certainly, but I think that perhaps, quite legitimately, we are 
very ambiguous in our response, should this attack occur, in 
many ways. I think this is one area where we should be 
unambiguous.
    Mr. Bereuter.  Unambiguous, right.
    Mr. Berman.  Even making it a sense of Congress leaves an 
ambiguity. I would like to see it automatically invoked if 
possible.
    Mr. Bereuter.  I thank the gentleman.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gilman.  If there are no further comments, the 
gentleman has an amendment.
    Mr. Bereuter.  Mr. Chairman, I do offer an amendment.
    Mr. Gilman.  The clerk will read the amendment.
    Ms. Bloomer: Amendment offered by Mr. Bereuter, page 3, 
strike line 10 and all that follows to page 4, line 3, and 
insert the following.
    [The amendment appears in the appendix.]
    Mr. Gilman.  The amendment is considered as having been 
read. Mr. Bereuter, on the amendment.
    Mr. Bereuter.  Mr. Chairman, these recommendations come to 
us from Mr. Smith and his staff. They relate to a reorientation 
of the wording in sections (a) and (b), on pages 3 and 4, and 
constituted no substantive change. I encourage the adoption 
thereof.
    Mr. Gilman.  I support the amendment.
    The question is on the amendment. All in favor, signify in 
the usual manner.
    [Chorus of ayes.]
    Mr. Gilman.  Opposed?
    [No response.]
    Mr. Gilman.  The amendment is carried.
    In support the amendment and appreciate the gentleman's 
willingness to provide these kinds of appropriations. This 
measure does have bipartisan support. I urge our Members to 
support the bill as amended. The American Institute in Taiwan 
serves such an important function. The mission should be 
appropriately supported by the Congress, and no doubt the 
current facility is inadequate.
    Through its authorization of funds, this bill supports the 
efforts to find a suitable location for a new facility. It 
encourages the initiation of construction. We are looking 
toward a long future with Taiwan. It is time to make a long-
range commitment and invest in a new facility to support that 
relationship.
    Are there any other Members seeking recognition?
    [No response.]
    Mr. Gilman.  If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter.  Mr. Chairman, I ask unanimous consent that 
my full statement be made a part of the record.
    Mr. Gilman.  Without objection.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]
    Mr. Bereuter.  I move that the Chairman be requested to 
seek consideration of the pending resolution, as amended, on 
the suspension calendar.
    Mr. Gilman.  The question is now on the motion from the 
gentleman from Nebraska. All those in favor, signify in the 
usual manner.
    [Chorus of ayes.]
    Mr. Gilman.  Those opposed, say no.
    [No response.]
    Mr. Gilman.  The ayes have it. The motion is agreed to. 
Further proceedings on this measure are postponed.
    The Committee now stands in recess. Pending the vote, we 
will continue very shortly. The Committee is in recess.
    [Whereupon, at 10:40 a.m., the Committee recessed, to 
reconvene this same day after the vote.]
      
=======================================================================




                            A P P E N D I X

                             March 23, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5672.001
    
    [GRAPHIC] [TIFF OMITTED] T5672.002
    
    [GRAPHIC] [TIFF OMITTED] T5672.003
    
    [GRAPHIC] [TIFF OMITTED] T5672.004
    
    [GRAPHIC] [TIFF OMITTED] T5672.005
    
    [GRAPHIC] [TIFF OMITTED] T5672.006
    
    [GRAPHIC] [TIFF OMITTED] T5672.007
    
    [GRAPHIC] [TIFF OMITTED] T5672.008
    
    [GRAPHIC] [TIFF OMITTED] T5672.009
    
    [GRAPHIC] [TIFF OMITTED] T5672.010
    
    [GRAPHIC] [TIFF OMITTED] T5672.011
    
    [GRAPHIC] [TIFF OMITTED] T5672.012
    
    [GRAPHIC] [TIFF OMITTED] T5672.013
    
    [GRAPHIC] [TIFF OMITTED] T5672.014
    
    [GRAPHIC] [TIFF OMITTED] T5672.015
    
    [GRAPHIC] [TIFF OMITTED] T5672.016
    
    [GRAPHIC] [TIFF OMITTED] T5672.017
    
    [GRAPHIC] [TIFF OMITTED] T5672.018
    

</pre></body></html>
